No. 19–1255

In the
Supreme Court of the United States

Renee Baker, Warden, et al.,
Petitioner,
v.
Jeff N. Rose,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*Amelia L. Bizzaro
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388–6577
amelia_bizzaro@fd.org
*Counsel of record for Jeff N. Rose

Respondent Jeff N. Rose respectfully asks for leave to file the attached Brief
in Opposition without prepayment of costs and to proceed in forma pauperis. Rose
has been granted leave to so proceed in the District Court and in the United States
Court of Appeals. Counsel was appointed by the United States District Court for the
District of Nevada under 18 U.S.C. § 3599(a)(2). See also SUPREME COURT RULE 39.1
(authorizing leave to proceed in forma pauperis). Accordingly, no affidavit is
attached
Dated July 1, 2020.
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Amelia L. Bizzaro
Amelia L. Bizzaro
Assistant Federal Public Defender

